         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Briefing Report




       ECHO Data Quality Audit – Phase I
       Results: The Integrated Compliance
       Information System Needs Security
       Controls to Protect Significant
       Non-Compliance Data

       Report No. 09-P-0226

       August 31, 2009
Abbreviations

DMR         Discharge Monitoring Report
ECHO        Enforcement and Compliance History Online
EPA         U.S. Environmental Protection Agency
ICIS        Integrated Compliance Information System
IDEA        Integrated Data for Enforcement Analysis
NPDES       National Pollutant Discharge Elimination System
OECA        Office of Enforcement and Compliance Assurance
OIG         Office of Inspector General
PCS         Permit Compliance System
SNC         Significant Non-Compliance
                                                                                                             09-P-0226
                      U.S. Environmental Protection Agency                                              August 31, 2009
                      Office of Inspector General


                      At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This Review               ECHO Data Quality Audit – Phase I Results:
                                     The Integrated Compliance Information System
This review, conducted by            Needs Security Controls to Protect Significant
KPMG, LLP, on behalf of the
Office of Inspector General,         Non-Compliance Data
sought to evaluate the quality and
integrity of data that resides in     What KPMG Found
the U.S. Environmental
Protection Agency’s (EPA’s)          End users of the Permit Compliance System and Integrated Compliance
Enforcement and Compliance           Information System National Pollutant Discharge Elimination System
History Online (ECHO) system.        (ICIS-NPDES) can override the Significant Non-Compliance (SNC) data field
                                     without additional access controls. This occurs because EPA has not
Background                           implemented database security features to restrict access to this field. Further,
                                     the ICIS-NPDES database edit checks do not prevent access to the SNC field.
ECHO provides integrated             As a result, users can change original data without authorization, which could
compliance and enforcement           directly affect ICIS-NPDES data made available to the public via ECHO.
information for approximately
800,000 regulated facilities         Other than the above weakness, KPMG noted that EPA implemented many
nationwide. ECHO allows users        effective processes designed to populate the Integrated Data for Enforcement
to find inspection, violation,       Analysis (IDEA) database, which the ECHO system uses to create reports for
enforcement action, informal         its users. KPMG noted that many of the EPA systems that feed data to IDEA
enforcement action, and penalty      have front-end edit checks designed to help ensure data quality. Further,
information about facilities for     KPMG noted that making data available through ECHO is a very complex
the past 3 years. ECHO contains      process that involves many data systems. KPMG noted that EPA has
information for the facilities       developed a methodology to manage the States’ data conversions. KPMG
regulated under the following        noted that EPA’s data mapping and system life-cycle documentation, data
environmental statutes: Clean        migration tools, and lessons learned processes are effective in managing this
Air Act Stationary Source            complex data conversion process.
Program, Clean Water Act
National Pollutant Discharge          What KPMG Recommends
Elimination System, and
Resource Conservation and            The Director, Office of Compliance, Office of Enforcement and Compliance
Recovery Act.                        Assurance (OECA), should implement database security features to limit the
                                     end users’ ability to change the SNC code in ICIS-NPDES.

For further information,             On August 6, 2009, the EPA Office of Inspector General met with OECA to
contact our Office of
                                     provide a briefing report of KPMG’s work to date and discuss the SNC code
Congressional, Public Affairs and
Management at (202) 566-2391.        finding. OECA provided informal comments on the finding. OECA plans to
                                     explore additional options to restrict manual SNC code override in
To view the full report,             ICIS-NPDES.
click on the following link:
www.epa.gov/oig/reports/2009/
20090831-09-P-0226.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         August 31, 2009

MEMORANDUM

SUBJECT:               ECHO Data Quality Audit – Phase I Results:
                       The Integrated Compliance Information System Needs
                       Security Controls to Protect Significant Non-Compliance Data
                       Report No. 09-P-0226


FROM:                  Rudolph M. Brevard
                       Director, Information Resources Management Assessments
                       Office of Mission Systems

TO:                    Cynthia Giles
                       Assistant Administrator
                       Office of Enforcement and Compliance Assurance


Attached is the briefing report for the first phase of the data quality audit of the Enforcement and
Compliance History Online system. KPMG, LLP, conducted this audit on behalf of the Office of
Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA). This report
contains findings that describe the problems KPMG identified and corrective actions KPMG
recommends. This report represents the opinion of KPMG and does not necessarily represent the
final EPA position. Final determinations on matters in this report will be made by EPA
managers in accordance with established audit resolution procedures.

KPMG conducted this portion of the audit from July 2008 to June 2009 at EPA Headquarters in
Washington, DC, in accordance with generally accepted government auditing standards issued
by the Comptroller General of the United States. These standards require planning and
performing the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
findings and conclusions. KPMG believes that the evidence obtained provides a reasonable basis
for the findings and recommendations.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report. We are requesting your response within 90 calendar days. You should include a
corrective actions plan for agreed upon actions, including milestone dates.
We would like to thank your staff for their cooperation. We have no objections to the further
release of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact me at (202) 566-0893
or brevard.rudy@epa.gov; or Harry Kaplan, Project Manager, at (202) 566-0898 or
kaplan.harry@epa.gov.




cc:
Lisa C. Lund
Gwendolyn Spriggs
Briefing Report



ECHO Data Quality Audit – Phase I
Results: The Integrated Compliance
Information System Needs Security
Controls to Protect Significant Non-
Compliance Data
ECHO Data Quality Audit
Phase I - Results


                          Agenda
 Objective and Scope
 Progress To Date
 Planned Tasks
 Observations and Recommendations
 Questions & Answers




                            -1-
ECHO Data Quality Audit
Phase I - Results


                      Objective and Scope
 The overall audit objective is to evaluate the processes and controls
 used to support the quality of data that is ultimately presented
 through Enforcement Compliance History Online (ECHO) system
 queries.
 The audit scope includes two phases:
   Phase I -- Data integrity review of processes and controls used to
    populate the Integrated Data for Enforcement Analysis (IDEA)
   Phase II -- Data quality processes and controls for select source
    systems that feed IDEA

 We selected and reviewed the Permit Compliance System (PCS) and Integrate
 Compliance Information System National Pollutant Discharge Elimination
 System (ICIS-NPDES) as the source systems for this project.

                                   -2-
ECHO Data Quality Audit
Phase I - Results


                      Progress Update
 We have conducted meetings with officials from:
   ¾ Office of Enforcement and Compliance Assurance
   ¾ Office of Environmental Information
   ¾ Veterans Affairs Office of Inspector General to discuss
     system mainframe controls
   ¾ State of Georgia to discuss ICIS-NPDES
   ¾ Region IV to discuss PCS and ICIS-NPDES




                               -3-
ECHO Data Quality Audit
Phase I - Results


                 Progress Update (cont)
 We have gained an understanding of the process used to
  populate IDEA and ECHO.
 We have gained an understanding of the PCS and ICIS-
  NPDES data elements and related data quality processes.
 We have gained an understanding of the State conversion
  process from PCS to ICIS-NPDES.




                              -4-
ECHO Data Quality Audit
Phase I - Results


                       Planned Tasks
 Perform testing of key PCS and ICIS-NPDES business rules to
  validate data logic.
 Trace a sample of PCS and ICIS-NPDES data elements into IDEA
  to test IDEA data quality.
 Review select supporting source documentation (e.g., DMRs)
  supporting PCS and ICIS-NPDES, and ultimately IDEA.
 Review select PCS and ICIS-NPDES controls over data field
  security.
 Test controls over the conversion process from PCS to ICIS-
  NPDES



                               -5-
ECHO Data Quality Audit
Phase I - Results


        Observations and Recommendations
 Observation #1:
  EPA appears to have effective processes designed to populate
  IDEA from the source systems.




                              -6-
ECHO Data Quality Audit
Phase I - Results


          Observations and Recommendations
   Observation #2:
    With such a large and complex data conversion, EPA has
    developed a methodology for the States conversion process
    that includes mapping documentation, system development
    life-cycle documentation, migration tools, and a lessons
    learned process after each state conversion that is used to
    update the methodology for future conversions.
    Some key parts of this process
    ¾   Workgroup meeting and conference calls;
    ¾   Test runs for the data conversion;
    ¾   Data element mapping from PCS to ICIS-NPDES


                                   -7-
ECHO Data Quality Audit
Phase I - Results


     Observations and Recommendations (cont)
 Observation #3:
  ICIS-NPDES has front end edit checks designed to help ensure
  data quality. For example, we noted that ICIS-NPDES provides
  warnings if DMR data exceeds authorized limits. Note that we
  have not yet tested the full effectiveness of the edit check
  controls.




                             -8-
ECHO Data Quality Audit
Phase I - Results


     Observations and Recommendations (cont)
 Observation #3: (Continued)
  During our ICIS-NPDES demonstration that the Georgia data
  steward showed us, there appears to be strong front end edit
  checks that are designed to ensure data quality. The data
  steward told us that the new screen layout made data entry
  “user friendly” and more intuitive
  Information from the DMR is the source for information entered
  into ICIS-NPDES.
  When data is entered into the data field, it is checked to ensure
  it is the correct data type (i.e. alpha, numeric). If the correct
  data type is not entered the data entry clerk will be alerted to
  this when they move to the next field.

                                -9-
ECHO Data Quality Audit
Phase I - Results


     Observations and Recommendations (cont)
 Observation #3: (Continued)
  If the DMR amount is greater than the permit amount allowed, a
  warning screen informs the data entry clerk that the amount
  exceeds the limit. At this point the data entry clerk will then
  review the input and if a correction is needed will make the
  correction and if nothing is required will continue with data
  entry.




                              -10-
ECHO Data Quality Audit
Phase I - Results


     Observations and Recommendations (cont)
 Observation #4:

  End users can override the ICIS-NPDES Significant Non-
  Compliance (SNC) data field without additional access controls.
  There are compensating detective controls, such as audit trails
  that document who changed the SNC field, however, these are
  only effective if the audit logs are actively reviewed on a regular
  basis.

  Management has not fully implemented database security
  features to restrict access to this field to authorized users.
  ICIS-NPDES also does not have any business rules to prevent
  this from happening.

                                -11-
ECHO Data Quality Audit
Phase I - Results


      Observations and Recommendations (cont)
 Observation #4: (Continued)

   The lack of a preventative control around the SNC data field
   allows users to change original data without authorization that
   could directly impact the data quality of this element in ICIS-
   NPDES which are then passed onto Integrated Data for
   Enforcement Analysis (IDEA) and ECHO.

 Recommendation: The Director, Office of Compliance
  should:

  1. Implement ICIS database security features to limit the end
     users’ ability to change the SNC code.

                                -12-
